                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                 THE INSPECTOR GENERAL



                                           Oct 25, 2002



The Honorable James Jeffords
Chairman
Committee on Environment and Public Works
U.S. Senate
Washington, D.C. 20510

Dear Chairman Jeffords:

        This letter responds to your August 26, 2002, request that we provide a complete picture
of the FY 2002 funding needs of each non-federal National Priorities List (NPL) site. We are
sending an identical letter to Senator Boxer, Chair of the Superfund, Toxics, Risk and Waste
Management Subcommittee. We are providing two enclosures that show the FY 2002 funding
requested and received for remedial actions and long-term remedial action responses.

        The Office of Emergency and Remedial Response (OERR) provides funds to the Regions
after considering Regional requests to fund construction activities. These funds are a combination
of current year appropriated funds, unspent funds from prior year appropriations, and funds
released in September as part of the Congressional holdback. Regions initially request funds prior
to the start of the fiscal year. In addition to the funds provided by Headquarters, the Regions
obligate funds from two additional sources. Funds can be obligated from monies provided by
responsible parties in accordance with consent decrees. Regions maintain these funds in special
accounts. Also, the Regions obligate funds provided by states as matching funds for remedial
action construction activities.

         Enclosure 1 is a list of non-federal Superfund NPL sites that needed FY 2002 funds for
remedial action construction activities. For FY 2002, Regions requested $510 million for
remedial action construction activities. After assessing changed site conditions throughout the
year, Regions adjusted the need to $417 million. EPA obligated approximately $281 million
during FY 2002 from appropriated funds, including $95 million deobligated from prior year
funding. With the addition of approximately $39 million obligated by Regions from State
Superfund contracts and special accounts during FY 2002, EPA obligated a total of $320 million
to these sites. This represents a difference of $97 million from the Regions’ total need of $417
million. These numbers do not include pre-remedial action costs associated with remedial
investigation/feasibility studies, remedy selection, remedial design, and other study/investigation
activities.
        Enclosure 2 contains a list of sites undergoing long-term response actions. These sites are
generally sites where construction is complete and long-term response actions involve continuing
treatment activities. For FY 2002, Regions requested $47 million for long-term response actions.
After assessing changed site conditions throughout the year, Regions adjusted the need to $60
million. EPA obligated $27 million during FY 2002 from appropriated funds, including $3 million
deobligated from prior year funding. With the addition of approximately $16 million obligated by
Regions from State Superfund contracts and special accounts, EPA obligated a total of $43
million to these sites. This represents a difference of $17 million from the Regions’ total need of
$60 million.

        This letter updates an earlier request we received from Representatives Dingell and
Pallone on April 17, 2002. We responded to that request with a letter on June 24, 2002, a copy
of which is provided as Enclosure 3. We highlight below some differences between our response
to Representatives Dingell and Pallone and what we found after obtaining all FY 2002 remedial
action and long-term response action funding data.

Examples of Changes in Funding Needs

        According to OERR officials, managing uncontrolled hazardous waste sites is inherently
uncertain in nature, and site funding needs change frequently based on dynamic site conditions
such as construction delays. For example, in our June 24, 2002, response to Representatives
Dingell and Pallone, we listed sites for which the Regions had requested but had not, at that point
in time, received funding in FY 2002. According to OERR and Regional officials, some of those
sites did not ultimately require funding in FY 2002. We included those sites in Enclosure 1 along
with the Regions’ explanations of why those sites did not require FY 2002 funding. Three
examples of sites that did not require FY 2002 funding include:

       •       Region 1 - New Hampshire Plating Co. – Region 1 staff indicated that design
               revisions prevented this site from being ready for construction in FY 2002, and
               Region 1 plans to submit the site for construction funding in FY 2003.

       •       Region 7 - Hastings Ground Water Contamination – Region 7 staff said they did
               not request FY 2002 funding for this site. According to OERR staff, the data
               included in our June 24, 2002, response to Representatives Dingell and Pallone
               originated from erroneous site planning estimates in the Superfund information
               system (CERCLIS).

       •       Region 8 - Vasquez Boulevard and I-70 – Region 8 did not need FY 2002 funding.
               Region 8 staff thought that the Record of Decision for this site would be
               completed in FY 2002, however the Record of Decision will not be signed until the
               first quarter of FY 2003.
Examples of Funding Limitations

       Enclosures 1 and 2 list five sites that did not receive all of the funding needed. The final
need for these five sites totaled approximately $38 million, and Regions obligated $15 million
from appropriations, State Superfund contracts, and special accounts. Additionally, Enclosure 1
shows that Regions requested, but did not receive, any funding for seven sites in FY 2002. The
Regions estimated that they would need approximately $92 million for the seven sites. Those
seven sites are:

           Region        State              Site Name              Final Need for FY 2002

              1           MA             Atlas Tack Corp.                      $13,100,000

              1           VT              Elizabeth Mine                       $15,000,000

              5            IL         Jennison-Wright Corp.                    $10,158,945

              5           IN          Continental Steel Corp.                  $28,500,000

              6           LA       Central Wood Preserving Co.                   $9,000,000

              6           TX           Hart Creosoting Co.                       $9,880,000

              6           TX          Jasper Creosoting Co.                      $6,240,000

           Total                                                               $91,878,945


         The National Risk-Based Priority Panel included these seven sites in its priority list of new
construction starts. The Office of Solid Waste and Emergency Response indicated that its priority
was to fund ongoing construction and the highest priority construction new starts. While this
generally seemed to be the case, we did note that EPA funded three lower priority new starts in
lieu of some of these seven sites because the three sites had minimal resource needs and would
create minimal future resource burdens.

       We asked what impact the lack of funding would have on these sites and Regional
Superfund officials provided the following examples. OERR staff stated that these Regional
examples posed lower environmental risks relative to other sites funded by EPA in FY 2002.

       •          Region 1 officials believe a lack of FY 2002 funding at the Elizabeth Mine site
                  poses a continuing environmental risk due to copper entering a stream near the
                  site. Region 1 officials further believe that ecological damage continues at a
                  wetlands area near the Atlas Tack site.

       •          Region 5 officials believe that long-term groundwater threats continue at both the
                  Jennison-Wright site and the Continental Steel sites.

       •          Region 6 officials believe that a lack of funding at both the Hart Creosoting and
                  Jasper Creosoting sites present long-term risks to human health and the
                  environment. Region 6 officials said that groundwater releases from those sites
                  have contaminated the Jasper Aquifer. While Region 6 officials said that
                  contamination from those sites does not pose an immediate threat to the city’s
               water well, the migrating contaminated groundwater plume will eventually reach
               the well if Region 6 cannot implement a permanent remedy. Region 6 officials
               stated that contaminated surface water has impacted a wetland near the Jasper
               Creosoting site, and that contaminants remain in surface water near the Hart
               Creosoting site.

“Enforcement First” Approach

         EPA’s Assistant Administrators for the Office of Enforcement and Compliance Assurance
and the Office of Solid Waste and Emergency Response issued a joint memorandum to Regional
Administrators on September 20, 2002, reemphasizing the Agency’s existing approach to pursue
“enforcement first” throughout the Superfund cleanup process. The memorandum urges
Superfund site teams to negotiate timely settlements with responsible parties and have responsible
parties conduct remedial actions whenever possible. Further, the memorandum notes that if a
Region cannot negotiate a timely settlement with responsible parties to perform a remedial action
at a site, then the Region should issue Unilateral Administrative Orders to all appropriate parties
to compel expeditious cleanup before the Region proceeds with a Superfund-financed remedial
action.

       Headquarters staff emphasized additional existing practices to help conserve Superfund
resources, including:

       •       reviewing post cleanup activities;

       •       tightening the criteria for NPL listing; and

       •       requiring Regions to return to Headquarters a greater portion of deobligated funds
               to allow Headquarters to distribute funds to Regions that may need them.

        Headquarters staff believe that emphasizing the “enforcement first” approach as well as
the other actions listed above will help conserve Superfund resources for cleanup of those sites
where viable responsible parties do not exist, and would greatly assist the Agency’s efforts to use
Superfund monies most efficiently.

Relevant Ongoing OIG Superfund Reviews

        We are evaluating EPA’s efforts to improve the performance and reduce the costs
associated with long-term operation and maintenance of groundwater cleanup systems currently
operating at Superfund sites across the nation. In 2000, EPA initiated a nationwide project to
conduct optimization evaluations of groundwater pump and treat systems in the Superfund
program. As a result of the evaluations, EPA has identified a number of opportunities for
improvements in efficiency and effectiveness of these systems. Recommendations include
improving the delineation of groundwater contaminants, better evaluating the capture of
groundwater contaminants, eliminating treatment components that are no longer necessary,
reducing labor costs, repairing or replacing faulty treatment equipment, and developing a clearly
stated site exit strategy, among others. EPA believes that, although the Agency may incur costs
to implement the recommendations, they will result in a reduction in the long-term costs of
Superfund-financed pump and treat operations. We plan to issue our report on this project in
January 2003.

Methodology

        To respond to your request, we obtained information from Superfund officials in OERR
and in each Regional office. We relied on the data provided by Superfund officials, including data
from the Superfund information system (CERCLIS). We verified the data with Superfund
officials, but did not independently determine data accuracy. We did not evaluate the
effectiveness of the process used to identify sites for funding or the effectiveness of funds used.
Finally, we did not attempt to identify problems in site identification or cleanup processes which,
if corrected, would make additional funds available. The work we performed does not constitute
an audit conducted in accordance with Government Auditing Standards.

       If you or your staff have any questions, feel free to call me or Patrick Gilbride, my Special
Assistant, at (202) 566-0927.

                                                      Sincerely,

                                                              /s/

                                                      Nikki L. Tinsley

Enclosures (3)
                                                                                                                                     Enclosure 1

                                 Summary of Non-Federal NPL Remedial Action Site Funding



                                                                                    Total FY02
            FY02 Requested       FY02 Obligated                                  Amount Obligated    Final Site      Estimated
           Amount from HQ         Amount from         Special      State SF        (sum of prior     Need for          Total            Obligated
Region     planning estimate      HQ RA AOA**        Accounts      Contracts        3 columns)         FY02            Costs             to Date

 1                 $65,800,000        $19,841,026    $17,621,190     $200,000          $37,662,216    $65,762,216    $406,900,000       $135,423,587
 2                 174,250,000        129,099,840              0    10,854,000         139,953,840    139,953,840    1,047,577,235       582,478,851
 3                   1,350,000            857,685              0             0             857,685        857,685       45,787,285        52,196,699
 4                  33,300,000         17,313,813         12,801     2,991,153          20,317,767     20,317,767      291,185,870       125,997,480
 5                  81,050,961         19,482,590        813,718             0          20,296,308     58,955,253      410,214,690       237,058,695
 6                  68,020,000         28,490,708              0     1,660,042          30,150,750     55,270,750      245,052,777       173,047,777
 7                   9,360,000          6,900,000        247,106       622,769           7,769,875      7,769,875       27,162,770        30,242,770
 8                  43,015,000         20,188,515              0     3,590,000          23,778,515     29,405,000      195,000,000       189,917,073
 9                   7,441,000         15,627,049        258,539             0          15,885,588     16,144,127    1,027,700,000        68,741,166
 10                 26,692,000         22,943,969              0             0          22,943,969     22,943,969      689,130,000       224,243,700

 TOTAL            $510,278,961      $280,745,195     $18,953,354   $19,917,964        $319,616,513   $417,380,482   $4,385,710,627     $1,819,347,798

         **includes prior year fund appropriation obligations
                                                                                                                                                                                          Enclosure 1

                          Region 1 - Non-Federal NPL Remedial Action Site Funding



                                                                                                                                          Total FY02
                                                                FY02 Requested         FY02 Obligated                                  Amount Obligated       Final Site    Estimated
                                                               Amount from HQ           Amount from          Special      State SF       (sum of prior        Need for        Total        Obligated
RG ST        EPA ID       Site Name                            planning estimate        HQ RA AOA**         Accounts      Contracts       3 columns)            FY02        Costs (1)       to Date     Notes

1   MA   MAD001026319     Atlas Tack Corp.                             $13,100,000                   $0             $0            $0                     $0   $13,100,000   $18,200,000      $222,600
1   MA   MAD980731335     New Bedford Site                              10,000,000            6,541,026     15,267,185       200,000             22,008,211    22,008,211   302,000,000    73,869,436
1   ME   MED980915474     Eastland Woolen Mill                          12,000,000            5,000,000              0             0              5,000,000     5,000,000    43,000,000    36,023,534
1   NH   NHD001091453     New Hampshire Plating Co.                     12,000,000                    0              0             0                      0                  18,200,000     5,821,476    (2)
1   NH   NHD990717647     Ottati & Goss/Kingston Steel Drum              3,700,000            8,300,000        554,005             0              8,854,005     8,854,005    25,500,000    19,486,541
1   VT   VTD988366621     Elizabeth Mine                                15,000,000                    0              0             0                      0    15,000,000
1   ME   MED981073711     Eastern Surplus                                        0                    0      1,800,000             0              1,800,000     1,800,000

                                                   TOTALS              $65,800,000          $19,841,026    $17,621,190      $200,000            $37,662,216   $65,762,216 $406,900,000 $135,423,587

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                          action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                          include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                          costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

               (2)        This site was not ready for funding in FY02 due to delays caused by design revision. Construction will begin at the
                          site in the first quarter of FY03.
                                                                                                                                                                                               Enclosure 1

                          Region 2 - Non-Federal NPL Remedial Action Site Funding



                                                                                                                                                Total FY02
                                                                      FY02 Requested        FY02 Obligated                                   Amount Obligated      Final Site    Estimated
                                                                     Amount from HQ          Amount from         Special      State SF         (sum of prior       Need for        Total        Obligated
RG ST        EPA ID       Site Name                                  planning estimate       HQ RA AOA**        Accounts      Contracts         3 columns)           FY02        Costs (1)       to Date     Notes

2   NJ   NJD980504997     Burnt Fly Bog                                     $22,000,000          $20,111,271             $0            $0            $20,111,271   $20,111,271   $50,905,885   $50,905,885    (2)
2   NJ   NJD980484653     Chemical Insecticide Corp.                         28,500,000           19,092,897              0             0             19,092,897    19,092,897    48,000,000    26,362,502    (3)
2   NJ   NJD094966611     Combe Fill South Landfill                           1,400,000            1,150,000              0             0              1,150,000     1,150,000    47,687,079    47,687,079    (4)
2   NJ   NJ0001900281     Federal Creosote                                   33,500,000           36,548,872              0     5,870,000             42,418,872    42,418,872   146,000,000    87,818,872    (5)
2   NJ   NJD980785646     Glen Ridge Radium Site                             15,000,000            8,250,000              0     1,750,000             10,000,000    10,000,000   120,000,000   120,000,000    (6)
2   NJ   NJD980654164     Montgomery Township Housing Dev.                    2,000,000            2,000,000              0             0              2,000,000     2,000,000     2,000,000     2,000,000    (7)
2   NJ   NJD980654156     Rocky Hill Municipal Well                           2,000,000            2,000,000              0             0              2,000,000     2,000,000     2,000,000     2,000,000    (7)
2   NJ   NJD073732257     Roebling Steel Co.                                 12,000,000            3,700,000              0             0              3,700,000     3,700,000   106,000,000    31,401,728    (8)
2   NJ   NJD980654172     U.S. Radium Corp.                                  10,000,000            6,160,000              0     1,840,000              8,000,000     8,000,000   110,000,000   102,560,000    (6)
2   NJ   NJD002385664     Vineland Chemical Co., Inc.                        20,000,000            9,200,000              0       800,000             10,000,000    10,000,000   132,000,000    47,456,568    (6)
2   NJ   NJD986620995     Welsbach & Gen. Gas Mantle (Camden)                12,000,000            7,000,000              0             0              7,000,000     7,000,000   160,000,000    19,405,153    (6)
2   NY   NYD981566417     GCL Tie & Treating Inc.                             4,000,000            2,520,000              0       480,000              3,000,000     3,000,000    21,000,000    20,000,000    (6)
2   NY   NYD986882660     Li Tungsten Corp.                                   1,000,000            2,500,000              0             0              2,500,000     2,500,000    50,000,000     6,500,000    (9)
2   NY   NY0001233634     Little Valley                                               0                    0              0       114,000                114,000       114,000     6,184,271     1,684,271   (10)
2   NY   NYD986950012     Mohonk Road Industrial Plant                          250,000              250,000              0             0                250,000       250,000    17,000,000     1,160,197    (7)
2   NY   NYD980528657     Olean Well Field                                    1,000,000            1,400,000              0             0              1,400,000     1,400,000     8,000,000     2,800,000    (6)
2   NY   NYD047650197     Stanton Cleaners Area Ground Water                          0              330,000              0             0                330,000       330,000     4,800,000     1,500,000   (10)
2   NY   NYD980763767     Vestal Water Supply Well 1-1                        1,600,000            1,286,800              0             0              1,286,800     1,286,800     8,000,000     5,636,596   (11)
2   VI   VID982272569     Tutu Wellfield                                      8,000,000            5,600,000              0             0              5,600,000     5,600,000     8,000,000     5,600,000   (12)

                                                          TOTALS           $174,250,000        $129,099,840              $0   $10,854,000           $139,953,840 $139,953,840 $1,047,577,235 $582,478,851

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                          action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                          include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                          costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

               (2)        Obligated amount reflects the actual amount requested by the state to complete the cleanup project.

               (3)        The requested amount reflected full planning estimate to complete the entire project. The obligated amount
                          provides sufficient funds to carry the cleanup project into FY04.

               (4)        Obligated amount reflects the actual amount requested by the state to support ongoing claims litigation.
(5)    Obligated amount reflects actual cleanup progress at the site which is greater than previously estimated. Significant
       funding needed in FY03 to maintain aggressive cleanup schedule.

(6)    Obligated amount reflects actual financial need to support cleanup project.

(7)    Obligated amount reflects requested amount.

(8)    Requested amount included funding for new phase of cleanup which was not ready to start in FY02. Funds for this
       cleanup phase (slag area) will be needed in FY03. Obligated amount provides sufficient funds to carry cleanup
       project into FY03.

(9)    Obligated amount reflects actual cleanup progress at site which is greater than previously estimated.

(10)   Obligated amount reflects increased financial need identified subsequent to September 2001 planning estimate.

(11)   Requested amount included funds for RA and LTRA activities. Obligated amount in table reflects only financial need
       to support cleanup. An additional amount was obligated for LTRA consistent with total requested amount ($1.6 million).

(12)   Obligated amount reflects actual financial need to construct remedy and support cleanup project.
                                                                                                                                                                               Enclosure 1

                          Region 3 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                 Total FY02
                                                       FY02 Requested         FY02 Obligated                                  Amount Obligated      Final Site   Estimated
                                                      Amount from HQ           Amount from         Special      State SF        (sum of prior       Need for       Total        Obligated
RG ST        EPA ID       Site Name                   planning estimate        HQ RA AOA**        Accounts      Contracts        3 columns)           FY02       Costs (1)       to Date     Notes

3   PA   PAD980538649     Berkley Products                              $0            $261,928             $0            $0             $261,928     $261,928     $5,400,000    $7,259,700    (2)
3   PA   PAD980691794     Berks Sand Pit                                 0              66,169              0             0               66,169       66,169      5,800,000     5,580,760    (3)
3   PA   PAD002390748     Hellertown Manufacturing                 350,000                   0              0             0                    0            0                    3,915,661    (4)
3   PA   PAD002338010     Havertown                                      0             380,038              0             0              380,038      380,038     10,600,000    12,024,938    (5)
3   PA   PAD980926976     North Penn - Area 6                    1,000,000                   0              0             0                    0            0      5,000,000     5,180,116    (6)
3   PA   PAD980829527     Walsh LF                                       0              35,000              0             0               35,000       35,000      4,000,000     3,303,000    (5)
3   VA   VAD003117389     Saunders Supply                                0             114,550              0             0              114,550      114,550     14,987,285    14,932,524    (7)

                                          TOTALS                $1,350,000            $857,685             $0            $0             $857,685     $857,685    $45,787,285   $52,196,699

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                          action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                          include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                          costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

               (2)        Region 3 did not request HQ RA AOA funding for this site at the beginning of the fiscal year. This site had an unexpected
                          construction need during mid-year.

               (3)        Region 3 did not request HQ RA AOA funding for this site at the beginning of the fiscal year. This site had an unexpected
                          construction need during mid-year. Region 3 used HQ RA AOA money it received mid-year to address the need. Region 3
                          said this site is an LTRA site that had an unexpected mid-year RA need.

               (4)        The site did not need funding in FY 2002. Region 3 probably entered this site into CERCLIS incorrectly as the site
                          belongs on the LTRA list (Enclosure #2), not the RA list.

               (5)        Region 3 did not request HQ RA AOA funding for this site at the beginning of the fiscal year. This site had an unexpected
                          construction need during mid-year. Region 3 used HQ RA AOA money it received mid-year to address the need.

               (6)        FY 2002 funding no longer needed because the site was funded in FY 2001.

               (7)        Region 3 did not request HQ RA AOA funding for this site at the beginning of the fiscal year. This site had an unexpected
                          construction need (well replacement) during mid-year. Region 3 used HQ RA AOA money it received mid-year to address the need.
                                                                                                                                                                                             Enclosure 1

                          Region 4 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                            Total FY02
                                                                    FY02 Requested        FY02 Obligated                                 Amount Obligated         Final Site    Estimated
                                                                   Amount from HQ          Amount from         Special      State SF       (sum of prior          Need for        Total       Obligated
RG ST        EPA ID       Site Name                                planning estimate       HQ RA AOA**        Accounts      Contracts       3 columns)              FY02        Costs (1)      to Date     Notes

4   FL   FLD012978862     Alaric Area Groundwater                             $200,000             $200,000           $0            $0                 $200,000      $200,000   $2,314,879    $2,100,000
4   FL   FLD008161994     American Creosote Works (Pensacola)                8,000,000            2,471,708            0       228,292                2,700,000     2,700,000   21,762,177     7,000,000    (2)
4   FL   FLD991279894     Coleman-Evans Wood Preserving Co.                  7,000,000            4,753,698            0     2,246,302                7,000,000     7,000,000   66,135,051    39,300,000
4   FL   FLD004119681     Hollingsworth Solderless Terminal                     50,000               50,000            0             0                   50,000        50,000    4,705,045       830,000
4   FL   FLD045459526     Solitron Microwave                                 2,400,000              268,227            0             0                  268,227       268,227   10,836,325     1,430,000    (3)
4   FL   FL0001209840     Southern Solvents, Inc.                            5,000,000              532,542            0             0                  532,542       532,542    4,673,837     2,640,000
4   FL   FLD004065546     Tower Chemical Co.                                   250,000              100,000            0             0                  100,000       100,000   29,110,108     1,600,000    (3)
4   FL   FLD091471904     Trans Circuits, Inc.                                 200,000              442,846            0             0                  442,846       442,846    4,820,000     2,275,000
4   GA   GAD003269578     Woolfolk Chemical Works                              300,000              300,000            0             0                  300,000       300,000   35,903,560     4,750,000
4   NC   NCD024644494     ABC One Hour Cleaners                                300,000              300,000            0             0                  300,000       300,000    5,012,988     4,400,000
4   NC   NCD981026479     Benfield Industries, Inc.                            100,000                    0            0             0                        0             0   13,274,743     6,400,000    (4)
4   NC   NCD003188828     Cape Fear Wood Preserving                            750,000               10,000            0       250,000                  260,000       260,000   38,400,000    22,400,000    (5)
4   NC   NCD003188844     Carolina Transformer Co.                           5,100,000            4,833,441            0       266,559                5,100,000     5,100,000   22,305,828    17,000,000
4   NC   NCD095458527     FCX, Inc. (Statesville Plant)                        200,000                    0            0             0                        0             0    7,500,000     6,500,000    (6)
4   SC   SCD980839542     Elmore Waste Disposal                                450,000                1,351            0             0                    1,351         1,351    5,555,777     2,460,000
4   TN   TND096070396     Ross Metals Inc                                    3,000,000            3,050,000            0             0                3,050,000     3,050,000   10,175,552     4,300,000
4   TN   TND980844781     Wrigley Charcoal Plant                                     0                    0       12,801             0                   12,801        12,801    8,700,000       612,480

                                                        TOTALS            $33,300,000          $17,313,813       $12,801 $2,991,153                 $20,317,767   $20,317,767 $291,185,870 $125,997,480

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                          action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                          include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                          costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

               (2)        Remainder of funds needed in FY03 and FY04.

               (3)        Remainder of funds needed in FY03.

               (4)        This original plan was for LTRA.

               (5)        Remainder of funds needed in FY04.

               (6)        Funding will be needed in FY03.
                                                                                                                                                                                             Enclosure 1

                         Region 5 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                               Total FY02
                                                                      FY02 Requested        FY02 Obligated                                  Amount Obligated     Final Site    Estimated
                                                                     Amount from HQ          Amount from          Special     State SF        (sum of prior      Need for        Total        Obligated
RG ST       EPA ID       Site Name                                   planning estimate       HQ RA AOA**         Accounts     Contracts        3 columns)          FY02        Costs (1)       to Date     Notes

5 IL    ILD006282479     Jennison-Wright Corporation                         $12,500,000                   $0            $0            $0                   $0   $10,158,945   $12,000,000      $570,000    (2)
5 IL    ILD980794333     Lasalle Electric Utilities                            7,000,000                    0             0             0                    0             0    56,000,000    26,301,537    (3)
5 IL    ILD005252432     Parsons Casket Hardware Co.                             166,961                    0             0             0                    0             0     5,000,000     4,000,000    (3)
5 IN    IND001213503     Continental Steel Corp.                              30,250,000                    0             0             0                    0    28,500,000   125,000,000    47,434,911    (4)
5 MI    MID980476907     Parsons Chemical                                              0              390,921             0             0              390,921       390,921     5,000,000     4,302,629    (5)
5 MI    MI0001119106     Aircraft Components (D & L Sales)                     1,500,000            1,500,000             0             0            1,500,000     1,500,000    13,200,000     9,659,519    (6)
5 MI    MID000722439     Velsicol Chemical Corp (Michigan)                    28,849,000           16,791,693             0             0           16,791,693    16,791,693    60,000,000    46,434,281    (7)
5 MI    MID006030373     BOFORS NOBEL, INC.                                            0                    0       813,718             0              813,718       813,718    18,000,000    15,637,256    (8)
5 MI    MID985574227     Lower Ecorse Creek Dump                                   5,000               49,526             0             0               49,526        49,526     3,000,000     1,476,526    (5)
5 MI    MID060174240     Ott/Story/Cordova Chemical Co.                           20,000                    0             0             0                    0             0    65,000,000    35,604,808    (3)
5 MI    MID006031348     Peerless Plating                                         10,000               61,350             0             0               61,350        61,350    10,000,000     9,971,088    (9)
5 MI    MID980794556     U.S. Aviex                                              450,000              370,850             0             0              370,850       370,850     6,000,000     3,651,450    (9)
5 MN    MND006192694     MacGillis & Gibbs/Bell Lumber & Pole Co.                300,000              318,250             0             0              318,250       318,250    32,014,690    32,014,690    (9)

                                                         TOTALS              $81,050,961         $19,482,590      $813,718             $0          $20,296,308   $58,955,253 $410,214,690 $237,058,695

        **includes prior year fund appropriation obligations

        Notes Provided by Regional Officials:

              (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                         action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                         include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                         costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

              (2)        Final site federal dollar need based on Illinois EPA Cooperative Agreement Application dated September 17, 2002.

              (3)        Subsequent to September 24, 2001, it was determined that no funds were needed in FY02.

              (4)        Based on the September 2002 final design and bidding documents, this is the estimated cost of awarding and
                         overseeing the "lagoon area" contract. Remedial action activities associated with this contract would span an
                         estimated 116 weeks. This site did receive $50,000 towards security at the site, not toward remedial actions.

              (5)        Subsequent to September 24, 2001, it was determined that these funds were needed in FY02.

              (6)        This amount was awarded to the RACS contractor, based on final design documents.

              (7)        The September 24, 2001 request was a "multi-year" request. The final FY02 site need was $16,791,693.
(8)    This site had an unexpected mid-year construction need. Funds were needed to plug some wells and install some new wells.
       This site also has a construction completion date.

(9)    The cleanup of this site was not started in FY02. The reduction in the need was due to subtracting the EPA
       intramural costs from the total estimate in the Action Memorandum. The estimated total costs are $9 - $14 million.

(10)   If this site had been funded earlier in the year, it would have needed $8 million; however, it was not funded until
       the fourth quarter FY02, so the entire amount was not needed in FY02.

(11)   The funds obligated to this site were deobligations from an old Cooperative Agreement to a new cooperative
       agreement. No new funds were needed for this site.
                                                                                                                                                                                            Enclosure 1

                         Region 6 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                       Total FY02
                                                                  FY02 Requested          FY02 Obligated                            Amount Obligated            Final Site    Estimated
                                                                  Amount from HQ           Amount from        Special     State SF    (sum of prior             Need for        Total        Obligated
RG ST        EPA ID      Site Name                               planning estimate         HQ RA AOA**       Accounts     Contracts    3 columns)                 FY02        Costs (1)       to Date         Notes

6   AR   ARD980745665    Midland Products                                      $300,000          $300,000            $0           $0                 $300,000     $300,000 $29,176,641 $29,176,641             (2)
6   LA   LAD008187940    Central Wood Preserving Co.                          9,000,000                 0             0            0                        0    9,000,000   9,000,000     725,000             (3)
6   LA   LAD052510344    Delatte Metals                                      14,000,000        14,000,000             0            0               14,000,000   14,000,000  14,000,000 18,900,000
6   LA   LAD000239814    American Creosote Works, Inc.                                0           115,708             0            0                  115,708      115,708  20,110,676 20,110,676              (4)
6   OK   OKD082471988    Hudson Refinery                                      8,220,000         3,000,000             0            0                3,000,000    3,000,000  26,000,000 11,800,000              (5)
6   OK   OKD980629844    Tar Creek (Ottawa County)                           10,000,000         5,000,000             0    1,660,042                6,660,042    6,660,042  88,000,000 70,400,000              (6)
6   TX   TX0001399435    City of Perryton Well No. 2                          2,000,000         2,000,000             0            0                2,000,000    2,000,000   4,000,000   2,930,000
6   TX   TXD050299577    Hart Creosoting Company                             10,000,000                 0             0            0                        0    9,880,000  12,305,000     425,000             (7)
6   TX   TXD980514996    Highlands Acid Pit                                           0            75,000             0            0                   75,000       75,000  13,460,460 13,460,460              (8)
6   TX   TXD008096240    Jasper Creosoting Company Inc                        6,500,000                 0             0            0                        0    6,240,000   9,000,000     760,000             (9)
6   TX   TX0001407444    Sprague Road Ground Water Plume                      8,000,000         4,000,000             0            0                4,000,000    4,000,000  20,000,000   4,360,000            (10)

                                                     TOTALS              $68,020,000         $28,490,708             $0 $1,660,042             $30,150,750 $55,270,750 ************************************

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)       Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                         action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                         include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                         costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

               (2)       This site had a mid-year unexpected construction need. This site also has a construction completion date.

               (3)       The cleanup of this site was not started in FY02.

               (4)       This was an obligation of RA funds which was accompanied by a deobligation of state cost share funds of equal
                         amount. The purpose of this exchange was to correct a previous over-obligation of state cost share funds to the site.

               (5)       This site was ready to start at the beginning of FY02; however, funds were not made available until the fourth quarter
                         FY02, so the entire amount was not needed in FY02. The estimated total costs are $26 - $31 million.

               (6)       The request for this site was reduced from $10 million to $5 million in the first quarter FY02. The need for RA funds
                         increased during the year as sampling of high access areas in Miami, OK was done. The estimated total costs are $88 million
                         to $90 million. The amount obligated to date includes State Cost Share funds.

               (7)       The cleanup of this site was not started in FY02. The reduction in the need was due to subtracting the EPA
       intramural costs from the total estimate in the Action Memorandum. The estimated total costs are $12,305,000 - $15,305,000.

(8)    This site had an unexpected mid-year construction need. Funds were needed to plug some wells and install some new wells.
       This site also has a construction completion date.

(9)    The cleanup of this site was not started in FY02. The reduction in the need was due to subtracting the EPA
       intramural costs from the total estimate in the Action Memorandum. The estimated total costs are $9 - $14 million.

(10)   If this site had been funded earlier in the year, it would have needed $8 million; however, it was not funded until
       the fourth quarter FY02, so the entire amount was not needed in FY02.
                                                                                                                                                                                            Enclosure 1

                          Region 7 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                            Total FY02
                                                                   FY02 Requested         FY02 Obligated                                 Amount Obligated        Final Site   Estimated
                                                                  Amount from HQ           Amount from         Special      State SF       (sum of prior         Need for       Total        Obligated
RG ST        EPA ID       Site Name                               planning estimate        HQ RA AOA**        Accounts      Contracts       3 columns)             FY02       Costs (1)       to Date     Notes

7   KS   KSD981710247     57th and North Broadway St. Site                    $100,000                   $0           $0      $140,000                $140,000    $140,000     $2,810,000    $1,400,000
7   KS   KSD046746731     Ace Services                                       5,200,000            5,200,000            0       482,769               5,682,769   5,682,769      8,100,000     7,700,000
7   KS   KSD980741862     Cherokee County                                            0                    0        1,299             0                   1,299       1,299      9,642,770     9,642,770    (2)
7   MO   MOD980686281     Oronogo Mining Belt                                        0                    0      245,807             0                 245,807     245,807      4,300,000     3,500,000    (3)
7   NE   NED981713837     10th Street Site                                   2,060,000            1,700,000            0             0               1,700,000   1,700,000      2,310,000     1,700,000
7   NE   NED980862668     Hastings Groundwater Contamination                 2,000,000                    0            0             0                       0                                6,300,000    (4)

                                                      TOTALS                $9,360,000          $6,900,000      $247,106      $622,769              $7,769,875 $7,769,875     $27,162,770   $30,242,770

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                          action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                          include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                          costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

               (2)        The remedial action at operable unit #7 is now complete. Total cost was $9,642,770. FY02 funds came from a
                          Special Account; no State Superfund Contract money.

               (3)        Total estimated cost is $4.3 million; and total obligated is $3.5 million. Expect remaining RA funding to come from
                          the Special Account.

               (4)        No FY02 funding needed. Region 7 did not request funding for this site in FY02 (possible CERCLIS error).
                                                                                                                                                                                      Enclosure 1

                          Region 8 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                         Total FY02
                                                                      FY02 Requested     FY02 Obligated                               Amount Obligated      Final Site    Estimated
                                                                     Amount from HQ       Amount from       Special      State SF       (sum of prior       Need for        Total      Obligated
RG ST        EPA ID       Site Name                                  planning estimate    HQ RA AOA**      Accounts      Contracts       3 columns)           FY02        Costs (1)     to Date     Notes

8   CO   COD980716955     Denver Radium Site                               $15,200,000        $8,000,000            $0     $490,000            $8,490,000    $8,490,000 $152,000,000 $118,388,037    (2)
8   CO   COD983778432     Summitville Mine                                           0                 0             0      100,000               100,000       100,000
8   CO   CO0002259588     Vasquez Boulevard and I-70                         7,000,000                 0             0            0                     0                               7,054,255    (3)
8   MT   MTD982572562     Basin Mining Area                                  3,900,000         1,298,984             0            0             1,298,984     3,900,000                11,427,015    (4)
8   MT   MTSFN7578012     Upper Tenmile Creek Mining Area                    3,515,000         1,000,000             0            0             1,000,000     3,515,000   43,000,000   17,681,952
8   SD   SDD987673985     Gilt Edge Mine                                    13,400,000         9,889,531             0    3,000,000            12,889,531    13,400,000                35,365,814    (5)

                                                     TOTALS                $43,015,000       $20,188,515            $0 $3,590,000            $23,778,515    $29,405,000 $195,000,000 $189,917,073

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                          action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                          include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                          costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

               (2)        Initial FY02 request was adjusted down due to changing site conditions.

               (3)        Region 8 did not need FY02 funds because the site's Record of Decision will not be signed until the first quarter of FY03.
                          Earlier in FY02, it was thought that the ROD could be completed during the FY and that funds would be needed. It is too early to estimate total costs.

               (4)        It is too early to estimate total costs.

               (5)        Additional Records of Decision to come. It is too early to estimate total costs. Previous estimated total costs did not include
                          prior expenditures at the site.
                                                                                                                                                                                                Enclosure 1

                           Region 9 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                               Total FY02
                                                                      FY02 Requested         FY02 Obligated                                 Amount Obligated       Final Site    Estimated
                                                                     Amount from HQ           Amount from         Special     State SF        (sum of prior        Need for        Total         Obligated
RG   ST       EPA ID       Site Name                                 planning estimate        HQ RA AOA**        Accounts     Contracts        3 columns)            FY02        Costs (1)        to Date     Notes

9    AZ   AZD980695969     Indian Bend Wash Area                                       $0            $100,000            $0            $0               $100,000      $100,000   $140,000,000    $1,140,715    (2)
9    CA   CAD980498612     Iron Mountain Mine                                   1,500,000          11,354,049             0             0             11,354,049    11,354,049    880,000,000    46,432,945
9    CA   CAD029295706     Lorentz Barrel & Drum CO.                                    0                   0       258,539             0                258,539       517,078      2,700,000     4,045,549    (3)
9    CA   CAD009106527     McCormick & Baxter Creosoting Co.                      950,000           1,405,000             0             0              1,405,000     1,405,000                    4,192,245    (4)
9    CA   CAD981997752     Modesto Ground Water Contamination                     510,000             368,000             0             0                368,000       368,000      5,000,000     2,371,092    (5)
9    CA   CAD980677355     San Gabriel Valley (Area 1)                          2,400,000           2,400,000             0             0              2,400,000     2,400,000                   10,558,620
9    CA   CAD981434517     Newmark Ground Water Contamination                   2,081,000                   0             0             0                      0             0                                 (6)

                                                         TOTALS               $7,441,000          $15,627,049      $258,539            $0            $15,885,588   $16,144,127 $1,027,700,000   $68,741,166

          **includes prior year fund appropriation obligations

          Notes Provided by Regional Officials:

                (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                           action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                           include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                           costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

                (2)        FY02 funds were not captured in the initial data pull because it was miscoded.

                (3)        This was incorrectly coded as a fund lead RA. Construction complete was achieved in 1998 and the site is currently
                           in the LTRA stage. Data will be corrected in the system shortly.

                (4)        Budget needs were increased from $950,000 to $1,405,000. This was due to the increase in material cost and original
                           source was no longer available.

                (5)        Budget needs were reduced from $510,000 to $368,000 based on revised cost estimate from USACE.

                (6)        No FY02 funds needed. Budget needs were shifted to FY04 in the anticipation that funds will be needed at that time.
                           However, we are currently negotiating the consent decree which we hope to enter into by the end of March 2003, which
                           would mean no further HQ funding needed.
                                                                                                                                                                                            Enclosure 1

                           Region 10 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                                   Total FY02
                                                                          FY02 Requested        FY02 Obligated                                  Amount Obligated   Final Site   Estimated
                                                                         Amount from HQ          Amount from         Special      State SF        (sum of prior    Need for       Total      Obligated
RG ST         EPA ID       Site Name                                     planning estimate       HQ RA AOA**        Accounts      Contracts        3 columns)        FY02       Costs (1)     to Date      Notes

10   ID  IDD048340921 Bunker Hill Mining & Metallurgical                         $15,350,000         $13,691,957             $0            $0        $13,691,957   $13,691,957 $562,300,000 $151,013,700    (2)
10   OR ORD009020603 McCormick & Baxter Creos. Co. (Portland)                      2,000,000           4,000,000              0             0          4,000,000     4,000,000   25,500,000   14,700,000    (3)
10   OR ORD980988307 Northwest Pipe & Casing/Hall Process Co.                        400,000                   0              0             0                  0             0    7,700,000    3,200,000    (4)
10   WA WAD053614988 Frontier Hard Chrome, Inc.                                    4,000,000             530,000              0             0            530,000       530,000    4,530,000      530,000    (5)
10   WA WAD009248295 Wyckoff Co./Eagle Harbor                                      4,840,000           4,600,000              0             0          4,600,000     4,600,000   84,300,000   50,000,000
10   WA WAD0000026534 Palermo Well Field Ground Water Contamin.                      102,000             122,012              0             0            122,012       122,012    4,800,000    4,800,000

                                                              TOTALS             $26,692,000         $22,943,969             $0            $0        $22,943,969   $22,943,969 $689,130,000 $224,243,700

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

                (1)        Estimated total costs include removal and remedial action costs incurred and expected removal and remedial
                           action costs where a Record of Decision or Action Memorandum has been signed. These projections do not
                           include the cost of work conducted (or to be conducted) by responsible parties. Cleanup costs do not include
                           costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

                (2)        Requested amount does not include amounts for OUs 1 or 3, where RA was delayed beyond FY02. The requested
                           amount includes $11 million for OU4.

                (3)        Headquarters issued $3,259,300 for this site; Region 10 funded the balance with leftover money from other sites.

                (4)        No RA funds required in FY02.

                (5)        Most funding moved to FY03 due to schedule delays.
                                                                                                       Enclosure 2

         Summary of Non-Federal NPL Sites with Long-Term Response Actions



            FY02 Requested                                                            Total FY02
           Amount from HQ         FY02 Obligated                                   Amount Obligated      Final Site
           planning estimate       Amount from          Special      State SF        (sum of prior       Need for
Region      from Sept. 2001        HQ RA AOA**         Accounts      Contracts        3 columns)           FY02

 1                  $1,810,000            $540,519       $750,000     $4,106,899          $5,397,418       $5,397,418
 2                  18,980,000           13,852,990      5,450,000       670,800          19,973,790       19,973,790
 3                   2,800,000            1,713,903              0             0           1,713,903        1,713,903
 4                     336,938              436,938        200,000             0             636,938          636,938
 5                   7,877,000            5,869,123              0     1,574,289           7,443,412        7,443,412
 6                     475,000            1,035,649              0             0           1,035,649        1,035,649
 7                           0                    0              0             0                   0                0
 8                  12,700,000            1,119,982      3,157,300             0           4,277,282       20,757,300
 9                   1,006,000            1,353,095         36,975       500,000           1,890,070        1,890,070
 10                    890,000              903,331              0             0             903,331          903,331

 TOTAL             $46,874,938         $26,825,530      $9,594,275    $6,851,988         $43,271,793      $59,751,811

         **includes prior year fund appropriation obligations
                                                                                                                                                                Enclosure 2

                          Region 1 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                               Total FY02
                                                                       FY02 Requested          FY02 Obligated                               Amount Obligated    Final Site
                                                                       Amount from HQ           Amount from         Special     State SF      (sum of prior     Need for
RG ST        EPA ID       Site Name                                    planning estimate        HQ RA AOA**        Accounts     Contracts      3 columns)         FY02        Notes

1   MA   MAD003809266     Charles-George Reclamation Trust Landfill               $500,000                    $0           $0     $47,939             $47,939      $47,939
1   MA   MAD0001041987    Baird & McGuire                                                0               200,170            0   3,500,000           3,700,170    3,700,170
1   MA   MAD980732317     Groveland Wells                                          600,000                     0            0     400,000             400,000      400,000
1   MA   MAD000192393     Silresim Chemical Corp.                                        0                     0      750,000           0             750,000      750,000
1   NH   NHD062002001     Kearsarge Metallurgical Corporation                      260,000               340,349            0     137,423             477,772      477,772
1   NH   NHD980503361     Mottolo Pig Farm                                               0                     0            0      21,537              21,537       21,537
1   NH   NHD980671002     Savage Municipal Water Supply                            450,000                     0            0           0                   0            0     (1)

                                                           TOTALS               $1,810,000             $540,519      $750,000 $4,106,899          $5,397,418 $5,397,418

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        No impact to the Savage Site due to not getting funding. Region 1 moved the site need to FY03.
                                                                                                                                                                     Enclosure 2

                          Region 2 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                                    Total FY02
                                                                        FY02 Requested           FY02 Obligated                                  Amount Obligated     Final Site
                                                                        Amount from HQ            Amount from          Special     State SF        (sum of prior      Need for
RG ST        EPA ID       Site Name                                     planning estimate         HQ RA AOA**         Accounts     Contracts        3 columns)          FY02        Notes

2   NJ   NJD063157150     Bog Creek Farm                                         $1,000,000              $500,000             $0     $200,000            $700,000       $700,000     (1)
2   NJ   NJD980529085     Ellis Property                                          3,000,000              2,699,790             0            0            2,699,790      2,699,790    (1)
2   NJ   NJD053280160     Garden State Cleaners                                     500,000                450,000             0       50,000              500,000        500,000    (1)
2   NJ   NJD981490261     Higgins Farm                                            1,200,000                900,000             0            0              900,000        900,000    (1)
2   NJ   NJD980505416     Lipari Landfill                                                 0                      0     5,450,000            0            5,450,000      5,450,000    (2)
2   NJ   NJD980766828     South Jersey Clothing Co.                                 500,000                450,000             0       50,000              500,000        500,000    (1)
2   NJ   NJD002385664     Vineland Chemical Co., Inc.                             4,000,000              4,000,000             0            0            4,000,000      4,000,000    (1)
2   NY   NYD002066330     American Thermostat Co.                                 1,500,000              1,500,000             0            0            1,500,000      1,500,000    (1)
2   NY   NYD980652275     Brewster Wellfield                                        850,000                850,000             0       24,000              874,000        874,000    (1)
2   NY   NYD981184229     Circuitron Corp.                                                0                390,000             0      160,000              550,000        550,000    (1)
2   NY   NYD002044584     Claremont Polychemical                                  3,900,000              1,000,000             0            0            1,000,000      1,000,000    (3)
2   NY   NYD986950012     Mohonk Road Industrial Plant                              350,000                350,000             0            0              350,000        350,000    (1)
2   NY   NYD001533165     SMS Instruments, Inc.                                     200,000                300,000             0            0              300,000        300,000    (1)
2   NY   NYD047650197     Stanton Cleaners Area GW Contamination                    480,000                150,000             0            0              150,000        150,000    (1)
2   NY   NYD980763767     Vestal Water Supply Well 1-1                            1,500,000                313,200             0      186,800              500,000        500,000    (4)

                                                            TOTALS              $18,980,000           $13,852,990 $5,450,000         $670,800         $19,973,790    $19,973,790

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        Obligated amounts for all sites reflect actual funding needed to continue LTRA activities. Actual amounts may differ
                          somewhat from planned estimates due to close monitoring of expenditure rates versus available monetary balances
                          throughout the year.

               (2)        Obligated amount is from a special account for the site which was always planned to provide the necessary funds
                          to support LTRA activities.

               (3)        Requested amount reflected LTRA financial need covering a multiple-year period. Obligated amount approximates
                          annual LTRA need.

               (4)        Requested amount identified in table includes funding for both RA and LTRA activities. Obligated amount in table
                          reflects only financial need to support cleanup. An additional amount was obligated for LTRA activities consistent
                          with the total requested amount ($1.6 million).
                                                                                                                                                         Enclosure 2

                          Region 3 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                       Total FY02
                                                           FY02 Requested           FY02 Obligated                                  Amount Obligated     Final Site
                                                           Amount from HQ            Amount from           Special      State SF      (sum of prior      Need for
RG ST        EPA ID       Site Name                        planning estimate         HQ RA AOA**          Accounts      Contracts      3 columns)          FY02        Notes

3   PA   PAD980691794     Berks Sand Pit                              $500,000               $133,903              $0          $0             $133,903     $133,903     (1)
3   PA   PAD981034705     Butz LF                                       200,000               200,000               0           0              200,000      200,000     (2)
3   PA   PAD002360444     Cryochem, Inc.                                250,000               250,000               0           0              250,000      250,000     (3)
3   PA   PAD002338010     Havertown PCP                               1,100,000               220,000               0           0              220,000      220,000     (4)
3   PA   PAD002390748     Hellertown Manufacturing Co.                  350,000               210,000               0           0              210,000      210,000     (4)
3   PA   PAD039017694     Raymark                                        50,000               150,000               0           0              150,000      150,000     (5)
3   VA   VAD003125374     Greenwood Chemical Co.                        350,000               350,000               0           0              350,000      350,000     (3)
3   VA   VAD003117389     Saunders Supply                                     0               200,000               0           0              200,000      200,000     (6)

                                               TOTALS                $2,800,000             $1,713,903             $0          $0           $1,713,903 $1,713,903

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        Region 3's adjustment based on revised need and cost estimate at the start of FY 2002.

               (2)        Not previously requested.

               (3)        As requested.

               (4)        Region 3's adjustment based on operational data from treatment plant startup.

               (5)        Obligation used for National Pump and Treat Optimization Study.

               (6)        Region 3 did not request HQ LTRA AOA funding for this site at the beginning of the fiscal year. This site had an unexpected
                          construction need during mid-year. Region 3 used HQ LTRA AOA money it received mid-year to address the need.
                                                                                                                                         Enclosure 2

                           Region 4 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                         Total FY02
                                                       FY02 Requested      FY02 Obligated                             Amount Obligated   Final Site
                                                       Amount from HQ       Amount from        Special    State SF      (sum of prior    Need for
RG ST         EPA ID       Site Name                   planning estimate    HQ RA AOA**       Accounts    Contracts      3 columns)        FY02        Notes

4   KY    KYD980602155     Distler Brickyard                          $0                $0     $200,000          $0           $200,000     $200,000
4   NC    NCD981026479     Benfield Industries, Inc.                   0           100,000            0           0            100,000      100,000
4   SC    SCD980839542     Elmore Waste Disposal                 186,938           186,938            0           0            186,938      186,938
4   SC    SCD003362217     Palmetto Wood Preserving              150,000           150,000            0           0            150,000      150,000

                                            TOTALS              $336,938          $436,938     $200,000          $0           $636,938     $636,938

         **includes prior year fund appropriation obligations
                                                                                                                                                            Enclosure 2

                            Region 5 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                           Total FY02
                                                                       FY02 Requested        FY02 Obligated                             Amount Obligated     Final Site
                                                                       Amount from HQ         Amount from        Special   State SF       (sum of prior      Need for
RG   ST        EPA ID       Site Name                                  planning estimate      HQ RA AOA**       Accounts   Contracts       3 columns)          FY02        Notes

5    IN   IND980607881      Douglass Road/Uniroyal, Inc. LF                      $200,000                  $0         $0           $0                  $0             $0    (1)
5    MI   MID980504716      Duell & Gardner                                         40,000                  0          0            0                   0              0    (1)
5    MI   MID005341714      Hi Mill Manufacturing                                  300,000                  0          0            0                   0              0    (1)
5    MI   MID060174240      Ott/Story/Cordova Chemical Co.                       3,000,000            925,711          0    1,574,289           2,500,000      2,500,000    (1)
5    MI   MID006031348      Peerless Plating Co.                                   300,000            258,650          0            0             258,650        258,650    (1)
5    MI   MID006013049      Petoskey Municipal Well Field                          237,000                  0          0            0                   0              0    (1)
5    MI   MID980794556      US Aviex                                               750,000                  0          0            0                   0              0    (1)
5    MI   MID980701247      Wash King Laundry                                            0            520,000          0            0             520,000        520,000    (1)
5    MN   MND980904072      Long Prairie Groundwater Contamination                 450,000            450,000          0            0             450,000        450,000
5    MN   MND006192694      MacGillis & Gibbs/Bell Lumber & Pole Co.             1,100,000            750,000          0            0             750,000        750,000    (1)
5    WI   WID006100275      Oconomowoc Electroplating Co., Inc.                          0            708,962          0            0             708,962        708,962    (1)
5    WI   WID980821656      Onalaska Municipal Landfill                            200,000            103,281          0            0             103,281        103,281
5    WI   WID0006176945     Penta Wood Products                                  1,300,000          2,152,519          0            0           2,152,519      2,152,519

                                                            TOTALS              $7,877,000        $5,869,123          $0 $1,574,289            $7,443,412    $7,443,412

          **includes prior year fund appropriation obligations

          Notes Provided by Regional Officials:

                 (1)        FY02 needs were revised after September 24, 2001.
                                                                                                                                                             Enclosure 2

                           Region 6 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                            Total FY02
                                                                 FY02 Requested           FY02 Obligated                                 Amount Obligated    Final Site
                                                                 Amount from HQ            Amount from          Special     State SF       (sum of prior     Need for
RG ST         EPA ID       Site Name                             planning estimate         HQ RA AOA**         Accounts     Contracts       3 columns)         FY02        Notes

6   LA    LAD000239814     American Creosote                                       $0              $760,649            $0           $0            $760,649     $760,649     (1)
6   NM    NMD980749378     Cimarron Mining Corp.                              150,000               150,000             0            0             150,000      150,000
6   OK    OKD007188717     Double Eagle Refinery Co.                          162,500                62,500             0            0              62,500       62,500     (2)
6   OK    OKD980696470     Fourth Street Abandoned Refinery                   162,500                62,500             0            0              62,500       62,500     (3)

                                                     TOTALS                  $475,000            $1,035,649            $0           $0           $1,035,649 $1,035,649

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

                (1)        Funds were not planned in Sept. 2001 CERCLIS report; however, $625,000 was planned early in the first
                           quarter FY02. This amount was approximately 50% of the bid amount of operating the treatment plant.
                           Additional funds were added as they became available to ensure enough funds for the subcontracts that
                           were awarded.

                (2)        Only $62,500 was obligated as that is the amount that the State of Oklahoma requested in the Cooperative Agreement.

                (3)        Only $62,500 was obligated as that is the amount that the State of Oklahoma requested in the Cooperative Agreement.
                                                                                                                                         Enclosure 2

                                 Region 7 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                         Total FY02
                                                          FY02 Requested      FY02 Obligated                          Amount Obligated    Final Site
                                                          Amount from HQ       Amount from      Special   State SF      (sum of prior     Need for
RG   ST          EPA ID          Site Name                planning estimate    HQ RA AOA**     Accounts   Contracts      3 columns)         FY02       Notes



          Note: Neither Region 7 nor OERR officials list any LTRA sites.




          **includes prior year fund appropriation obligations
                                                                                                                                                      Enclosure 2

                          Region 8 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                  Total FY02
                                                     FY02 Requested          FY02 Obligated                                    Amount Obligated        Final Site
                                                     Amount from HQ           Amount from          Special      State SF         (sum of prior         Need for
RG ST        EPA ID       Site Name                  planning estimate        HQ RA AOA**         Accounts      Contracts         3 columns)             FY02       Notes

8   CO   COD980717557     Central City/Clear Creek            $1,100,000            $1,100,000            $0              $0             $1,100,000    $1,100,000
8   CO   COD007431620     Chemical Sales                         800,000                     0       800,000               0                800,000       800,000
8   CO   COD983778432     Summitville Mine                     3,200,000                     0     2,357,300               0              2,357,300     2,357,300    (1)
8   SD   SDD987673985     Gilt Edge Mine                       7,600,000                19,982             0               0                 19,982    16,500,000    (2)

                                         TOTALS              $12,700,000            $1,119,982 $3,157,300                 $0             $4,277,282   $20,757,300

         **includes prior year fund appropriation obligations

         Notes Provided by Regional Officials:

               (1)        The actually need went down due to severe drought conditions which resulted in less water needing treatment.

               (2)        Region 8 diverted money given to the Gilt Edge LTRA site to the Gilt Edge RA site. Initially, Region 8 received
                          obligated money to apply toward water treatment (LTRA). Region 8 decided it was more important to apply that
                          money toward decreasing the amount of water that had to be treated, so Region 8 applied that money to the site's
                          cap (RA activity).
                                                                                                                                                                Enclosure 2

                           Region 9 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                              Total FY02
                                                                     FY02 Requested          FY02 Obligated                                Amount Obligated      Final Site
                                                                     Amount from HQ           Amount from       Special     State SF         (sum of prior       Need for
RG   ST       EPA ID       Site Name                                 planning estimate        HQ RA AOA**      Accounts     Contracts         3 columns)           FY02        Notes

9    CA   CAD095989778     Fairchild Semiconductor Corp.                               $0                $0      $36,975            $0                $36,975         36,975    (1)
9    CA   CAD981434517     Newmark Ground Water Contamination                     906,000           750,000            0             0                750,000        750,000    (2)
9    CA   CAD029452141     Selma Treating Co.                                           0           603,095            0       500,000              1,103,095      1,103,095    (3)
9    CA   CAD980498612     Iron Mountain Mine                                     100,000                 0            0             0                      0              0    (4)

                                                         TOTALS                $1,006,000         $1,353,095     $36,975      $500,000             $1,890,070     $1,890,070

          **includes prior year fund appropriation obligations

          Notes Provided by Regional Officials:

                (1)        Total estimated costs unknown. EPA stopped operating the remediation system in Sept. 2001 due to insufficient
                           funds in the special account. Exploring enforcement options. Obligated to date: $387,166.

                (2)        Budget needs were reduced from $906,000 because prior year obligated funds were available to cover remaining balance.

                (3)        Total estimated costs: $30 million. Obligated to date: $18,006,660.

                (4)        This was incorrectly coded in the system as a fund lead LTRA. Data has been corrected in the system to reflect PRP lead LTRA.
                                                                                                                                                             Enclosure 2

                          Region 10 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                             Total FY02
                                                                         FY02 Requested          FY02 Obligated                           Amount Obligated    Final Site
                                                                         Amount from HQ           Amount from       Special   State SF      (sum of prior     Need for
RG ST        EPA ID       Site Name                                      planning estimate        HQ RA AOA**      Accounts   Contracts      3 columns)         FY02       Notes

10 WA   WAD980726301      Commencement Bay, South Tacoma Channel                    $740,000            $903,331         $0          $0           $903,331      $903,331    (1)
10 WA   WAD009248295      Wyckoff Co./Eagle Harbor                                   150,000                   0          0           0                  0             0    (2)

                                                               TOTALS               $890,000            $903,331         $0          $0           $903,331      $903,331

        **includes prior year fund appropriation obligations

        Notes Provided by Regional Officials:

               (1)        The requested amount above funded with extra money from other sites.

               (2)        No LTRA funds required in FY02.
                                                                                Enclosure 3

                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                              THE INSPECTOR GENERAL

                                              June 24, 2002

The Honorable John D. Dingell
Ranking Member
Committee on Energy and Commerce
U.S. House of Representatives
Washington, D.C. 20515

Dear Congressman Dingell:

         This letter responds to your request of April 17, 2002, that we identify and summarize the
funding needs of each non-federal Superfund National Priority List (NPL) site so cleanup
activities can be initiated, continued, or expedited. You also requested that we provide the
remedial action prioritization list for each region and any similar nationwide document. We are
sending an identical letter to Congressman Pallone.

        We are providing a series of enclosures that show the current Superfund remedial action
funding process and the need for additional funding to complete remedial actions. Enclosure 1
contains a list of all non-federal Superfund NPL sites where construction is not complete and
additional funding is needed. Funds distributed for some regions include only first and second
quarters distributions -- the rest are for the entire year. Costs associated with remedial
investigation/feasibility study (RI/FS), remedy selection, remedial design, and other
study/investigation activities (collectively called Pipeline Operations) are not included because
they are not budgeted, requested, and distributed by site. The last two columns, “Estimated Total
Cost” and “Obligated to Date,” provide a perspective on a site’s current clean-up status.
Generally, fund led sites with an obligated amount approaching the estimated amount are close to
being construction complete. This relationship is less certain with Potentially Responsible Party
(PRP) and Mixed lead sites because total estimated costs may include non-federal costs.
Enclosure 2 contains a description of EPA’s site cleanup funding process.

        Enclosure 3 contains a summary list of non-federal Superfund NPL sites where
construction is not complete and funding was not provided at requested levels. For FY 2002,
EPA Regions requested approximately $450 million for remedial actions, and EPA Headquarters
allocated approximately $224 million. This figure does not include the $100 million congressional
hold back, which is generally released in early September. Enclosure 4 describes EPA’s
procedures for distributing resources for remedial actions.


                                                 1
        Enclosure 5 contains a list of sites undergoing long term response actions. These sites are
generally sites where construction is complete and long term response action involves continuing
treatment activities. Regions requested $46.7 million for long term response actions, and $33.2
million was distributed. We included this information to provide some perspective on funding
used to operate and maintain treatment activities.

National Risk-Based Priority Panel Process for New Start Projects

         EPA’s Office of Enforcement and Compliance Assurance and the Office of Solid Waste
and Emergency Response consider the Prioritized List of Remedial Action Starts that you
requested to be “Enforcement Confidential” information. EPA officials maintain that release of
this list could jeopardize ongoing and future enforcement negotiations and can be withheld under
the Freedom of Information Act (FOIA). 5 U.S.C. Section 552(d) provides in part “This section
is not authority to withhold information from Congress.”

The Department of Justice (DOJ) interpreted 5 U.S.C. Section 552(d) in its Freedom of
Information Guide and Privacy Act Overview, May 2000, edition:

       Subsection (d) of the FOIA makes clear that the Act was not intended to authorize any
       new withholding of information, including from Congress. While individual Members of
       Congress possess merely the same rights of access as those guaranteed to “any person”
       under subsection (a)(3), Congress as a body (or through its committees and
       subcommittees) cannot be denied access to information on the grounds of FOIA
       exemptions.

      Further, the Freedom of Information Guide and Privacy Act Overview, refers to FOIA
Update Volume V., No. 1, pp.3-4, which states:

       In sum, when an agency receives a FOIA request from a Member of Congress, it should
       first determine whether it is a duly authorized request on behalf of Congress through
       legislative committee or subcommittee. Any FOIA request submitted by the chairman of a
       committee or subcommittee on a subject within its jurisdiction should routinely fall into
       this category. On the other hand, if the request is not an official committee or
       subcommittee request, then the agency should process it as a request from “any person”
       under the FOIA, but with particular regard for the considerations of congressional
       relations, discretionary disclosure and waiver referred to above.

        The National Risk-Based Priority list is an Agency document, not the result of any OIG
work, and the Agency has informed us that it is extremely sensitive. Therefore, based on DOJ
guidance, we will not be able to release the information without a request by the Chairman of a
Committee or Subcommittee with jurisdiction. Enclosure 6 describes the National Risk Based
Priority Panel Process for New Start Projects.


                                                 2
Examples of Funding Limitations

        We asked Regional officials to identify situations where cleanup could have been initiated,
continued, or expedited with additional funding. Also, we asked the Regions to specify activities
affected and associated funding needs. Here are some examples:

       •   Region 4 expressed concerns about two FY 2002 partially funded sites that will
           require $6 million in additional funds in FY 2002 to maintain clean-up progress.
           Region 4 also said that new starts are now a bottleneck in the Superfund pipeline;
           several new starts for 2001 were listed again in 2002.

       •   Region 6 did not receive approximately $56 million requested for three remedial action
           new starts and three non-time critical removal actions.

       •   Region 7 has several mega-sites where the remediation phase may be lengthened due
           to lack of funding. For example, the Region may stretch a 5-year, $100 million, clean-
           up over 10 years under current funding levels.

       •   Region 8 could have started work at two sites if it had received an additional
           $10 million it requested.

Methodology

        To respond to your request, we obtained information from Superfund officials in each of
EPA’s Regional offices to assemble a listing of the status of funding at each non-federal
Superfund NPL site. Regional officials provided information about site clean-up funding, the
process for obtaining funding, and the significance of funding reductions in recent years. We
relied on the data provided by Superfund officials, including data from the Superfund information
system (CERCLIS). We verified the data used with Superfund officials, but did not independently
determine its accuracy. Currently, we are reviewing the quality of CERCLIS data and have
identified potential issues. When completed, we will provide you with our report.

      If you or your staff have any questions, feel free to call me or Eileen McMahon,
Congressional Liaison, at (202) 260-0401.

                                              Sincerely,



                                              /s/ Nikki L. Tinsley

Enclosures (6)




                                                 3
